                     Office of Inspector General
                    Corporation for National and
                             Community Service




 Compilation and Analysis of
Incurred-Cost Audit Findings

OIG Report Number 05-01E
                Prepared by:

          Office of Inspector General
Corporation for National and Community Service
    1201 New York Avenue, NW., Suite 830
             Washington, DC 20525
                      Compilation and Analysis of Incurred-Cost Audit Findings


                                                    Table of Contents

Executive Summary .......................................................................................................... 1

Background ....................................................................................................................... 1

Purpose and Scope ............................................................................................................ 2

Summary of Questioned Costs......................................................................................... 3

Summary of Compliance and Internal Control Findings ............................................. 8

Conclusions and Recommendations.............................................................................. 10



Appendix A: Detailed Methodology .............................................................................. 11

Appendix B: Major Categories and Subcategories of Questioned
           Costs and Findings.................................................................................... 14

Appendix C: Questioned Costs and Findings – Tables and Charts ........................... 17
Executive Summary

The Office of Inspector General (OIG) Evaluation Section compiled and analyzed the
questioned costs and findings from the 25 incurred-cost audit reports issued by the OIG
Audit Section between October 1, 2001, and March 31, 2005. Of the total $287 million
in Federal funds covered in these audit reports, almost $32 million, or 11 percent of the
costs, were questioned. Out of the 18 incurred-costs audits that have completed the audit
resolution process, $2.4 million, or 8.8 percent of questioned costs, were also disallowed
by the Corporation.

This evaluation sought to identify trends and patterns among the questioned costs and
findings and to recommend corrective actions for the management of the Corporation for
National and Community Service (Corporation). We classified questioned costs, as well
as compliance and internal control findings, by major categories and subcategories in
consultation with OIG auditors.

Our analysis of incurred-cost audit findings found that OIG auditors frequently cited
inadequate financial controls and accounting systems. Specifically, auditors questioned
an estimated $15 million of claimed Federal and local match costs as a result of missing
support documentation associated with the fiscal administration of Corporation grants.
To address this, the Corporation should evaluate the effectiveness and adequacy of
grantee and subgrantee financial monitoring, as well as training and technical assistance
regarding financial practices.

Our review also revealed many instances where grantees and subgrantees had not
complied with grant award conditions regarding member records, especially in the area of
member eligibility records such as citizenship and high school diplomas or their
equivalents. As a result of noncompliance in this area, the auditors questioned more than
$18 million in member living allowances and Education Awards from Federal and local
sources. To address these findings, the Corporation should evaluate the effectiveness of
its systems and procedures in place to record and verify member eligibility records
located at grantees, as well as subgrantees.


Background

The Corporation provides opportunities for citizens of all ages and backgrounds to serve
in their communities to address unmet needs in such areas as education, public safety,
environmental concerns, disaster relief, and homeland security. In carrying out its
mission, the Corporation makes grants, such as those for AmeriCorps programs, to
various organizations that develop and implement programs to provide such
opportunities. The Corporation awards three-quarters of AmeriCorps funding to State
commissions, which in turn make grants to local nonprofit organizations and other
agencies. The remaining one-quarter of AmeriCorps funding is awarded to national
nonprofit organizations that operate programs in more than one state.
The OIG is responsible for detecting and preventing fraud, waste, and abuse in the
management and operations of the Corporation. In support of these efforts, the OIG
issued 25 incurred-cost audits of State commissions and national direct grantees between
October 1, 2001, and March 31, 2005. These reports included 23 audits of State
commissions and two of national direct grantees (listed in the appendices).

An incurred-cost audit report essentially consists of three parts, the Independent
Auditor’s Report, the Report on Compliance, and the Report on Internal Controls over
Financial Reporting.1

The Independent Auditor’s Report presents the results of the audit of claimed costs.
Specifically, it examines, on a test basis, the evidence that supports and documents such
amounts and disclosures in the schedules. The auditor questions claimed costs that were
identified as noncompliant, unnecessary, or unsupported.

For the Report on Compliance, the auditor discloses the instances in which the grantee
did not comply with the requirements of the grant award. Also in this report, the auditor
discloses those recurring instances of noncompliance that resulted in costs being
questioned.

In the Report on Internal Controls over Financial Reporting, the auditor reports on
weaknesses in the grantee’s internal controls that have an adverse affect on the
safeguarding of Federal funds and compliance with applicable Federal laws and grant
requirements.

Prior to this analysis, the OIG had not compiled and analyzed overall questioned costs
and findings from the completed incurred-cost audits of State commission and national
direct grantees. The only previous OIG attempt to compile and analyze audit findings
was in 1998, when it reviewed the audit findings on individual grant awards made early
in the AmeriCorps program. That review revealed that, out of 60 grantees, 37 (60
percent) incurred costs that were questioned due to either lack of supporting
documentation or noncompliance with grant award conditions.

Purpose and Scope

The purpose of this evaluation is to compile and categorize audit findings from incurred-
cost audits of Corporation grants made to State commissions and national direct grantees.
Through compilation and classification of audit findings into carefully selected categories
and subcategories, the OIG can systematically identify any significant or emerging trends
and patterns, particularly with AmeriCorps programs (categories and subcategories are
listed in the appendices). The OIG will issue follow-up reports containing additional data
from subsequent incurred-cost audits.

We conducted our work from March through April 2005 in accordance with quality
standards established by the President’s Council on Integrity and Efficiency for
Inspections and Evaluations. As part of our evaluation, we considered all categories that

                                            2
have been used to report on trends and patterns from prior compilations of OIG audit
findings and identified in Federal requirements, such as those governing grants
administration and cost principles promulgated by the Office of Management and Budget.
In addition, we sought the views of OIG auditors for categories that may already be used
in practice and the ones that we proposed for this evaluation. Also, we developed a
Microsoft Access database to record and compile the audit findings in order to facilitate
ongoing retrieval, analysis, and reporting. A detail of our methodology is presented in
Appendix A. Definitions of categories and subcategories of findings and questioned
costs are included in Appendix B. Additional tables and charts that supplement the
presentation of our results are included in Appendix C.

The organization and structure of the analysis results and the supporting appendices
follows much the same order that questioned costs, and compliance and internal controls
appeared in the incurred-cost audits we reviewed.2 We have also analyzed patterns of
questioned costs by audit report, audit year, and by funding source. Additionally, where
possible, findings were identified by subgrantee. We referred to any of these appendices
whenever we were able to provide further detail on whether any of these contributed
significantly to any particular audit finding.

Summary of Questioned Costs

Of the total $287 million that grantees and subgrantees claimed under their respective
grant awards covered in the 25 OIG incurred-cost audit reports issued between October 1,
2001, and March 31, 2005, almost $32 million, or 11 percent, of the Federally-funded
costs were questioned. Of these questioned costs, more than $26 million was in the
Federal share of AmeriCorps expenses and Education Awards while almost $4 million
was for administrative grants. This represented 11 and 19 percent of costs claimed for
these areas, respectively. (Figure 1 below and Table C-2 on p. 21)


                     FIGURE 1: Percent of Costs Questioned

         25.0%
                               19.3%
         20.0%

         15.0%
                   10.9%
                                                                    9.5%
         10.0%

          5.0%
                                                        1.1%
                                           -1.5%
          0.0%
                    AC         ADMIN      ED AWD       OTHER        PDAT
         -5.0%




                                           3
Between Federal and local sources, $43 million was questioned (Table C-1 on p. 20). As
shown in Figure 2 below, around one half of these were member-related costs while the
other half was related to administrative costs. Of these, more than $10 million were
questioned member and administrative costs from local sources.


                          FIGURE 2: Questioned Costs by Category

     $25,000,000
                                                               Match
                                   Misc                                     $3,072,545
                     $160,052                                 Shortfall
     $20,000,000
                                 Education
                    $5,922,949                               Allowable      $4,392,007
                                  Award
                                                               Costs
     $15,000,000



     $10,000,000                   Living
                                 Allowance                   Budget &
                   $14,739,502                                              $14,830,132
                                                             Reporting
      $5,000,000



            $-
                                 Member                    Administration



Administrative Costs that were Commonly Questioned by Auditors

For administrative costs questioned across funding sources, we were able to further group
these into three main categories: budget and reporting; allowable expenses; and
administrative match. (Figure 3 below and Table C-4 on p.23) In the area of budget and
reporting, accounting for $14.8 million in questioned costs, there appeared to be a
preponderance of recurring conditions. The majority of this amount, $10.1 million, or 68
percent of these questioned costs, was due to missing documentation. In addition, $2.8
million, or 19 percent of such claimed costs, were questioned due to differences between
the grantee’s financial statements or periodic expense reports submitted to the
Corporation, and the amounts in the grantee’s general ledger at the time of the audit.
Also, grantee drawdowns in excess of their current expenses represented another $1.7
million, or 11 percent of these questioned costs. Of questioned costs in this category,
$67,000, or 0.4 percent, were for duplicative costs charged to one or more accounts.

More than $4.3 million of claimed costs in the 25 selected audit reports were questioned
by auditors for allowability. Most of costs questioned in this category, $2.8 million, or
64 percent, were the result of the grantee or subgrantee not properly accounting for, or
lacking supporting documentation for staff payroll, including salaries and fringe benefits.
Auditors commonly cited grantees or subgrantees for allocating administrative costs to
their Corporation grants when they should not have, or using incorrect fringe benefit
rates. In other instances, the grantees or subgrantees had transactions that needed to be

                                             4
reclassified to other program years or programs. Another large portion of questioned
costs under this category involved miscellaneous cost items, including errors,
overpayments and underpayments.

More than $3 million of claimed costs were questioned due to administrative match
shortfall issues.3 Where match funds were themselves questioned for specific reasons,
these funds are included in the previous sections on budget and reporting or allowability.


                           Figure 3: Questioned Administrative
                                  Costs by Subcategory
    $16,000,000
                                                Other B&R *
                        Excess
                      Drawdowns                 $263,016
    $14,000,000
                      $1,685,520

                                               Difference - FSR &
    $12,000,000                                 General Ledger

                                                 $2,758,608

    $10,000,000



      $8,000,000



      $6,000,000
                       Missing
                      Documents                                            Other A.C.**
                     $10,122,976                                            $701,925
      $4,000,000
                                                Reclassified
                                                  $840,946

                                                                               Match
      $2,000,000
                                                  Staffing/                   Shortfall
                                                   Payroll
                                                                             $3,072,545
                                                $2,816,312
            $-

                                   Budget &                    Allowable                   Match
                                   Reporting                     Costs                    Shortfall




* Other B&R includes questioned costs claimed in excess of costs incurred, duplicative costs and
unauthorized expenditures.

** Other A.C. includes questioned costs that are unallocable, consulting/contracts and miscellaneous
allowable costs.


                                                      5
Member Costs that were Commonly Questioned by Auditors

These costs consisted primarily of living allowances, Education Awards, and
miscellaneous items, including uniforms, training and education, and healthcare. In the
25 incurred-cost audit reports issued between October 1, 2001, and March 31, 2005,
almost $20.8 million in member costs were questioned. (Figure 4 below and Table C-4
on p. 23)



               Figure 4: Questioned Member Costs by Subcategory

   $16,000,000
                  Missing / Improper
                     Time Sheets                Overclaimed/
                    $1,077,895                   Overpaid
   $14,000,000
                                                 $353,740


   $12,000,000




   $10,000,000




    $8,000,000
                      Eligibility
                     for Service                    Insufficient
                   $13,189,557                        Hours
    $6,000,000
                                                      $554,388



    $4,000,000
                                                     Eligibility
                                                    for Service
                                                      $5,436,871
    $2,000,000




          $-
                                      Living                       Education
                                    Allowance                       Award




                                                6
An estimated $14.7 million, or 71 percent of the member costs questioned, involved
living allowances. Lack of required documentation related to the members’ eligibility for
service resulted in $13.1 million, or 90 percent of these questioned costs. Due to lack of
specific required eligibility documents, auditors were not able to verify whether
individual members had a high school diploma or equivalent, whether they were U.S.
citizens or legal residents, or had undergone background checks for criminal activity4.
Almost $1.5 million, or 10 percent of questioned member living allowances, were
questioned due to missing or improper time sheets, living allowances that were
overclaimed or overpaid, and living allowances that were paid after the members had
completed their service.

Questioned costs related to Education Awards amounted to close to $5.9 million, or 29
percent of the total questioned member costs. As with living allowances, auditors
questioned $5.4 million of these costs, or 90 percent, for members who lacked eligibility
documentation. Other than this condition, auditors questioned $552,025 in Education
Awards due to either missing and improper time sheets or insufficient hours.5 The
remaining miscellaneous questioned member costs amounted to an additional $160,052.
(Figure 5 below and Table C-5 on p. 23)



                                 Figure 5: Questioned Costs by
                                    Member Eligibility Issues
        $12,000,000
                                  Background Check
                                      $367,877
        $10,000,000
                                       Other *
                                      $270,658

         $8,000,000



                                            Insufficient                   Other*
         $6,000,000
                                               Hours                       $209,014
                                                 $453,090

         $4,000,000




         $2,000,000
                                      High School                    High School
                                      & Citizenship                  & Citizenship
                                      $10,158,738                     $5,072,745

               $-
                      Living Allowance                   Education Award


* Other includes missing performance evaluation and unspecified.


                                                     7
Summary of Compliance and Internal Control Findings

We classified the audit findings further into subcategories to gain a better understanding
of the underlying conditions. We found that the most frequently recurring issues were
related to financial management, grant compliance, member compliance, and subgrantee
monitoring.

Recurring Financial Management and Compliance Weaknesses

In the 25 incurred-cost audit reports issued between October 1, 2001, and March 31,
2005, the auditors made 325 compliance and internal control findings. Out of this total,
77 findings, or almost 24 percent, were attributed to financial management weaknesses.
For the most part, grantees or their subgrantees lacked an adequate system of internal
controls for safeguarding assets, financial reporting, and compliance; had inadequate
financial systems or accounting procedures; or did not review actual to budgeted
expenditures as required. (Figure 6 below and Table C-9 on p. 29)

The next most frequently recurring audit findings involved grant compliance. Out of the
total, 76 findings, or 23 percent, were a result of costs being questioned for allowability.
Following the trends in the questioned costs already cited, member compliance,
eligibility, and reporting were frequent findings. Specifically, 63 findings, or 19 percent
of the total, fell into this group. As we detailed earlier, auditors disclosed that grantees or
their subgrantees had inadequate member records to verify eligibility members’ status
and whether member living allowances and benefits had been paid correctly. Another
frequently recurring audit finding centered on inadequate monitoring of subgrantees’
activities. Fifty-one, or 16 percent of the audit findings, were attributable to this
subcategory.

Financial reporting accounted for 38 findings, or 10 percent, while matching issues
represented another 20 findings, or 8 percent of the total findings. Most of the financial
reporting issues related to the timeliness of report submissions, while other findings on
reporting included instances in which Financial Status Reports were not reconciled with
accounting records.6 In terms of match, auditors found that grantees or their subgrantees
did not follow cost principles regarding allocation of expenditures, lacked internal
controls, or did not have an adequate system or accounting procedures to track match
expenditures.




                                               8
                                           Figure 6: Findings by
                                         Category and Subcategory

    90
    80
    70       16          Budget not
                    Matching Expenditures
    60
    50                  Inadequate
             30
                         Systems/                         FSR/FCTR
    40                  Accounting                       Reconciliation
                                               6
    30                                                   Other Reports
                                               6                                          Inadequate
                                                          not Timely           51         Subgrantee
    20                                         9        Subgrantees FSRs                  Monitoring
             31         Internal                           not Timely
    10                  Controls
                                               17        Grantee FSRs
                                                          not Timely
     0
          FINANCIAL                        FINANCIAL                         SUBGRANTEE
         MANAGEMENT                        REPORTING                         MONITORING




                                          Figure 6: Findings by
                                     Category and Subcategory (Cont.)


    80
    70                                         15           Financial
                                                        Document Retention            Other Member
                                                                                5        Issues *
    60
                                               17          Inadequate
    50                                                  Internal Controls      16        Living
                                                                                       Allow. Paid
                                                                                       Incorrectly
    40
    30
                                                        Allowable Costs/                Inadequate
    20                Allowable Costs/
                                               44                              42     Member Records
                                                        Cost Principles
             10       Cost Principles
    10               Inadequate Financial
             10      Systems/ Int. Controls
     0
      GRANT COMPLIANCE -              GRANT COMPLIANCE -                      MEMBER
          MATCHING                          OTHER                           COMPLIANCE &
                                                                             REPORTING




* Other member issues include member documents not being submitting in a timely manner and
inappropriate/ineligible member service.


                                                    9
Conclusions and Recommendations

1. Financial Management and Administrative Records

Conclusion: Auditors frequently cited inadequate financial controls and accounting
systems. As part of these findings, auditors questioned claimed costs as a result of
missing support documentation associated with the fiscal administration of Corporation
funding. For example, grantees and subgrantees are required to maintain source records
that can be traced back from financial reports that they submitted to the Corporation,
draw-downs that they made, and staff salaries and benefits that they charged to
AmeriCorps program funding. In all, the auditors questioned more than $15 million in
these types of costs over the period examined.

Recommendation: The Corporation should evaluate the effectiveness and adequacy of its
grantee and subgrantee financial monitoring as well as training and technical assistance to
grantees and subgrantees on financial practices. As part of this evaluation, the
Corporation should conduct a self-assessment of the scope and extent of these efforts in
light of the current level of funding available for monitoring, training and technical
assistance.

2. Member Management and Records

Conclusion: In many instances, grantees and subgrantees did not comply with grant
award conditions regarding member records. The most frequent incidents of
noncompliance involved missing or incomplete eligibility records for AmeriCorps
members, especially those that document the individual member’s citizenship status and
high school diploma (or its equivalent). As a result of noncompliance, the auditors
questioned more than $18 million collectively in living allowances and Education
Awards over the period examined. We note that the Corporation changed its
documentation requirements and the auditors now have fewer findings, but these issues
still represent a significant portion of questioned costs.

Recommendation: The Corporation should evaluate the effectiveness of its systems and
procedures in place to record and verify member eligibility records located at grantees as
well as subgrantees. As part of this effort, the Corporation should test member eligibility
data maintained and reports generated from its automated systems against source records
on file at grantees and subgrantees for overall accuracy and completeness. Additionally,
this evaluation should assess both the level of Corporation and grantee oversight and
monitoring currently being conducted on member records and the accuracy and
completeness of these records.




                                            10
    Appendix A



Detailed Methodology




        11
As shown in the table below, OIG issued a total of incurred 25 cost audit reports during
the period of October 1, 2000, through March 31, 2005. These reports covered
Corporation grants awarded to 23 State commissions and 2 national nonprofit
organizations (national direct grantees). The State commissions and nonprofit
organizations claimed total costs in the amount of almost $288 million under their
respective grants. Auditors questioned costs of almost $32 million, or 11 percent of the
grants’ total.

Incurred-Cost Audit Reports

 01-04 Oregon          02-11 Missouri     02-21 Alabama     03-07 Pennsylvania     05-08Vermont
 01-05 Delaware        02-14 Michigan     03-03 Indiana     03-08 Connecticut      05-09Hawaii
 02-08 North           02-16 Alaska       03-04 Wisconsin   04-14 South Carolina   05-12 Educational
 Carolina                                                                          Services District 112*

 02-09 Washington      02-17 New Jersey   03-05 Ohio        04-22 Rhode Island     05-13 Ohio
 02-10 Kentucky        02-20 New          03-06 Maine       05-04 Colorado         05-16 National
                       Hampshire                                                   Association of
                                                                                   Community Health
                                                                                   Centers*
* Nonprofit organization

An integral part of our methodology involved developing categories and subcategories to
consistently identify questioned costs and audit findings in order to compile them
systematically for retrieval, analysis, and reporting through the establishment of a
Microsoft Access database. In developing the categories and subcategories (identified
in Appendix B), we gained an understanding of the objectives and design behind
incurred-cost audits that the OIG performed and the types and extent of audit information
being collected. An incurred-cost audit reviews whether: (1) costs claimed under the
award are allowable, supported, reasonable and necessary; (2) grantee’s compliance with
the applicable award terms and requirements; (3) internal controls over financial
management and reporting were adequate to safeguard Federal funds.

We researched Federal requirements which must be followed government-wide for grants
administration and costs claimed under awards. These requirements are stipulated in
guidance, known as Circulars, promulgated by the Office of Management and Budget
(OMB). Directly related to this evaluation, OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations, requires certain grantees to submit audit
results to the Federal Audit Clearinghouse. Grantees often have multiple grant awards
from other agencies. Chief among its responsibilities, the Federal Audit Clearinghouse
disseminates audit information to Federal agencies and the public and supports OMB
oversight and assessment of Federal award audit requirements. Some of the categories
that the Clearinghouse designated to compile audit information, and which we also
considered for this evaluation, included: activities allowed or disallowed, eligibility,
matching, reporting, and subgrantee monitoring.


                                               12
In addition, we considered previous efforts to compile and analyze audit information.
Specifically, we reviewed the categories applied for identifying the types of findings that
were disclosed as part of the audits and reviews of the early grants made under the
AmeriCorps program (see OIG Audit Report Number 98-22, Summary of Results of
Audits & Reviews of Grants, Fiscal Year 1995 through 1997). This report revealed the
areas of difficulty that grantees were experiencing in administering their funding,
including compliance with specific grant provisions. Additionally, more than 60 percent
of those early grantees (37 of 60) had costs that were questioned by the auditors because
of inadequate support documentation or noncompliance.

Also, we reviewed categories used in OIG’s analysis of the results from 37 State
commission pre-audit surveys (see OIG Audit Report 01-41, Summary of 37 State
Commission Pre-Audit Survey Reports). Essentially, this analysis sorted results from the
37 pre-audit surveys by category, the finding, and frequency of that finding. OIG found
that, while 60 percent of the State commissions had established adequate financial
systems to administer their Corporation grants, only 19 percent had adequate systems to
monitor their subgrantees.

Finally, we obtained technical assistance and concurrence from OIG auditors on the
major categories that we proposed. At the request of OIG auditors, our analysis of
questioned costs did not include those that pertained to noncompliance with
documentation record retention requirements from earlier incurred-cost audits performed
during fiscal 2001 and 2002. It had been determined that some source documents
exceeded the required record retention time period at the time those audits were
performed.

As a result of the procedures performed above and input from OIG auditors, the two main
groups of categories that we designated for questioned costs were administrative and
member costs. Administrative cost categories included budget and reporting, allowable
costs, and match shortfall. Member cost categories included living allowance, Education
Award and miscellaneous costs. By associating costs with categories and subcategories
of questioned costs, we were able to examine patterns by funding type and audit year.
For findings related to compliance and internal controls, we classified them either as
financial management and subgrantee monitoring; financial reporting; grant compliance
(matching), grant compliance (other); or member compliance, eligibility, and reporting.




                                            13
            Appendix B



Major Categories And Subcategories of
   Questioned Costs And Findings




                 14
 MAJOR CATEGORIES AND SUBCATEGORIES OF QUESTIONED COSTS
 AND FINDINGS

 Findings and questioned costs were assigned standardized subcategories. These
 subcategories were, in turn, included in specific major categories based on the types of
 questioned costs and findings.

QUESTIONED COST CATEGORIES                                Questioned Cost Subcategories

Categories of questioned administrative costs             Administrative Costs – Budget and Reporting
included Budget and Reporting, how well
                                                          •   Missing Documentation
documentation and reports matched the                     •   Difference between FSR/PER and General Ledger
amounts in budgets and recorded expenditures.             •   Drawdowns
Allowable Costs focused on expenses that                  •   Duplicative Costs
could not be allocated to funding sources (such           •   Costs Claimed in Excess of Costs Incurred
as payroll based on inadequate time sheets) or            •   Unauthorized Expenditure
those that were reclassified or recalculated.
                                                          Administrative Costs – Allowable Costs
Administrative categories also included Match
Shortfall.                                                •   Staffing/Payroll (Time Allocation)
                                                          •   Unallocable
Categories of questioned member costs focused             •   Recalculated
on the Living Allowance as well as the                    •   Reclassification
Education Award. The first represented an                 •   Consulting/ Contract
                                                          •   Other
incurred-cost while the second represented a
funding liability. Living allowances might be             Administrative Costs – Match Shortfall
questioned based on eligibility for service,
missing or improper time sheets, overclaimed              •   Administrative Match Shortfall
or overpaid expenses, or payments made after
service completion. Education Awards might                Member Costs – Living Allowance
also be questioned based on eligibility issues,           •   Eligibility for Service
missing or improper time sheets or on                     •   Living Allowance Overclaimed/ Overpaid
insufficient hours worked to earn the award.              •   Missing/ Improper Time Sheets
Member eligibility issues include proof of                •   Living Allowance Paid after Service Completion
citizenship, high school diplomas or their
equivalent, criminal background checks for                Member Costs – Education Award
members working with children, or program                 •   Eligibility for Service
documents such as performance evaluations.                •   Missing/Improper Time Sheets
Miscellaneous costs include lack of                       •   Insufficient Hours
authorization for expenses, health care,
ineligible activities or excessive training costs.        Member Costs - Miscellaneous

                                                          •   Deviation from Budget/ No Prior Approval
                                                          •   HealthCare
                                                          •   Ineligible Activity
                                                          •   Training & Education
                                                          •   Uniforms & Other




                                                     15
FINDING CATEGORIES                               Finding Subcategories

                                                 Financial Management and Subgrantee
These categories included Financial              Monitoring
Management and Subgrantee Monitoring,
how closely financial expenditures and           •   Financial review of actual to budgeted expenditures
subgrantee activities were tracked and           •   Inadequate financial system/ accounting
                                                 •   System of internal controls for safeguarding assets,
controlled based on original budgets,                financial reporting, and compliance
project plans and compliance with                •   Inadequate monitoring of subgrantees' activity
applicable requirements. Finding
categories also included Financial               Financial Reporting
Reporting, focusing on timeliness of             •   Cash Transaction Reports not timely
reporting by grantees and subgrantees as         •   Final financial reports for project closeout not timely
well as the reconciliation of accounts.          •   Financial document retention - subgrantees
                                                 •   FSR’s not submitted timely by Commission
                                                 •   FSR’s not submitted timely by subgrantees
Other categories focused on program              •   Reconciliation of FSRs with FCTR
administration and included Matching of
Federal funds and Other Grant                    Grant Compliance - Matching
Compliance for regular AmeriCorps and            •   Allowable costs/cost principles
administrative funds. Both these                 •   Financial document retention - subgrantees
categories included allowable costs              •   Inadequate financial system/ accounting
principles, document retention and               •   System of internal controls for safeguarding assets,
                                                     financial reporting, and compliance
internal control systems. Categories of
findings relative to AmeriCorps                  Grant Compliance - Other
Members Compliance focused on
                                                 •   Allowable costs/cost principles
maintenance of member records such as            •   Financial document retention - grantee
eligibility documents and time sheets for        •   Financial document retention - subgrantees
living allowances and Education Awards.          •   System of internal controls for safeguarding assets,
                                                     financial reporting, and compliance

                                                 Member Compliance, Eligibility & Reporting

                                                 •   Inappropriate Service
                                                 •   Living allowance/ benefit expenses paid incorrectly
                                                 •   Allowable costs/cost principles
                                                 •   Inadequate records
                                                 •   Membership documents not submitted in timely
                                                     manner




                                            16
         Appendix C



Questioned Costs and Findings –
       Tables and Charts




              17
QUESTIONED COSTS                                             Table   Figure   Page


Questioned Costs by Audit Number and Fund Type               C-1              19
Questioned Costs by Fund Type and Category                   C-2              20
Questioned Costs by Fund Type and Category                            C-1     20
Questioned Costs by Category and Audit Number                C-3              21
Questioned Costs by Category and Subcategory                 C-4              22
Questioned Costs - Member Eligibility                        C-5              22
Questioned Costs by Category and Audit Year                  C-6              23
Questioned Administrative Costs by Category and Audit Year            C-2     24
Questioned Member Costs by Category and Audit Year                    C-3     25


FINDINGS

Findings by Category and Audit Number                        C-7              27
Findings by Category and Subcategory                         C-8              28
Findings by Category and Audit Year                          C-9              29
Findings by Category and Audit Year                                   C-4     30




                                            18
Incurred-Costs Audits - Questioned Costs

As shown in Table C-l below and Figure 1 on p.3, nearly 11 percent of claimed costs
were questioned by auditors. However, more than 19 percent of administrative grants
were questioned.

TABLE C-1: QUESTIONED COSTS BY AUDIT NO. AND FUND TYPE

                                      Federal Share of             Federal Share of
                                    AmeriCorps Grants &             Administrative
                                     Education Awards                  Grants



                                        Amount      Percent          Amount       Percent


   AUDIT 01-04 OR                    $2,951,111      41.1%          $27,867            4.2%
   AUDIT 01-05 DE                     $306,123       12.8%          $32,836            4.5%
   AUDIT 02-08 NC                     $368,101        3.3%         $113,789            6.3%
   AUDIT 02-09 WA                    $1,715,047       4.8%         $288,990           17.4%
   AUDIT 02-10 KY                    $5,165,985      34.4%         $292,174           26.0%
   AUDIT 02-11 MO                    $7,903,630      65.6%           $7,760            0.8%
   AUDIT 02-14 MI                     $262,715        2.3%          -$20,273           -2.0%
   AUDIT 02-16 AK                      $10,341        0.3%          $39,427           25.0%
   AUDIT 02-17 NJ                    $2,657,442       9.5%         $839,112           40.5%
   AUDIT 02-20 NH                    $2,266,933      55.6%         $338,220           61.8%
   AUDIT 02-21 AL                     $349,179        8.0%         $362,550           45.8%
   AUDIT 03-03 IN                     $829,243        7.4%               $0            0.0%
   AUDIT 03-04 WI                     $254,947        5.5%         $305,157           50.0%
   AUDIT 03-05 OH                    $1,163,097       9.3%               $0            0.0%
   AUDIT 03-06 ME                       $5,771        0.2%         $329,063           75.9%
   AUDIT 03-07 PA                           $0        0.0%        -$142,250           -20.0%
   AUDIT 03-08 CT                           $0        0.0%           $1,892            0.5%
   AUDIT 04-14 SC                      $22,557        0.6%               $0            0.0%
   AUDIT 04-22 RI                     $148,959        2.3%               $0            0.0%
   AUDIT 05-04 CO                       $3,516        0.0%        $1,089,907          89.6%
   AUDIT 05-08 VT                           $0        0.0%               $0             "- - -
   AUDIT 05-09 HI                     $260,193        9.2%               $0            0.0%
   AUDIT 05-12 ESD                      $4,929        0.1%               $0             "- - -
   AUDIT 05-13 0H                     $142,625        0.7%               $0            0.0%
   AUDIT 05-16 NACHC                   $38,724        0.5%               $0             "- - -


               TOTAL                $26,831,168      10.9%       $ 3,906,221          19.3%




                                           19
Table C-2 and Figure C-2 below show the amount of questioned costs broken out by fund
type and major category of costs. Altogether, there were more than $43 million in
questioned costs over the five years of reports surveyed across all funding sources,
including the first part of 2005. Of this, $22.7 million was in AmeriCorps grants, $2.9
million was in administrative grants and $ 5.9 million was in obligations for Education
Awards.


TABLE C-2: QUESTIONED COSTS BY CATEGORY AND FUND TYPE

                                      AC         ADMIN       ED AWD           MATCH           OTHER

Allowable Costs               $ 2,927,185    $ 1,164,609           ---      $ 399,124       $ (98,911)

Budget & Reporting            $ 7,173,690    $ 1,044,176           ---   $ 5,669,151        $ 943,115

Match Shortfall                $ 160,406      $ 729,609            ---    $ 2,182,530             ---

Living Allowance             $ 12,342,871            ---           ---    $ 2,295,214        $ 51,445

Education Award                       ---            ---   $ 5,991,259              ---           ---

Miscellaneous Member Costs     $ 113,331             ---           ---       $ 24,710         $ 3,673




                     Questioned Costs by Fund Type and Cost
                                   Category


   $25,000,000
                                                                         Miscellaneous
   $20,000,000                                                           Living Allowance
                                                                         Ed Award
   $15,000,000                                                           Match Shortfall
                                                                         Budget & Rept
                                                                         Allowable Costs
   $10,000,000


    $5,000,000


          $-
                      AC      ADMIN         ED AWD         MATCH         OTHER
   $(5,000,000)




                                            20
While Figure 3 on p.4 shows questioned costs across all funding sources for each major
category by audit number, Table C-3 below shows the total per category for each audit.
On average, 34 percent of questioned costs across all funding sources were categorized as
budget and reporting issues, and another 34 percent were living allowance issues. Of
budget and reporting issues, more than two thirds ($10.2 million) was related to missing
documentation and 18.6 percent ($2.8 million) was related to differences between
financial reports and general ledgers. Of unallowable costs, two thirds ($2.8 million) was
related to lack of records for staff payroll to support allocation of time to AmeriCorps
grants.

TABLE C-3: QUESTIONED COSTS BY CATEGORY AND AUDIT NUMBER

                            Administrative Costs                               Member Costs


                       Budget &    Allowable           Match          Living        Education
                       Reporting       Costs          Shortfall   Allowance            Award         Misc.

  TOTAL             $ 14,830,132 $4,392,007         $3,072,545 $ 14,739,502        $5,922,949   $160,052

AUDIT 01-04 OR        $1,558,708        ---                ---    $1,668,901         $572,991          ---
AUDIT 01-05 DE          $ 17,257   $151,910                ---           ---              ---       $5,162
AUDIT 02-08 NC          $140,028   $ 28,576             $5,189      $296,231         $ 85,050          ---
AUDIT 02-09 WA        $1,070,499   $155,219           $171,754      $ 45,343           $9,450          ---
AUDIT 02-10 KY        $2,129,145   $107,389         $1,594,948    $2,293,880         $827,562   $   14,382
AUDIT 02-11 NJ        $3,543,911   $904,423          $ 41,725     $6,811,569       $2,654,190          ---
AUDIT 02-14   MI        $ 43,427       $ 77                ---      $261,556        $175,748        $3,782
AUDIT 02-16 AK          $ 43,050   $ 74,427                ---      $ 10,341              ---          ---
AUDIT 02-17 NJ        $2,183,563   $899,724           $ 18,473      $425,774        $ 65,232    $   13,006
AUDIT 02-20 NH        $1,858,519   $ 70,589           $625,438    $1,491,422        $835,480    $   22,154
AUDIT 02-21 AL          $ 12,226   $787,026             $3,721      $387,679        $ 92,065    $   23,144
AUDIT 03-03   IN        $528,796   $274,468                ---     $216,253         $167,762           ---
AUDIT 03-04 WI              $750   $105,077           $305,157      $193,053        $132,200        $3,673
AUDIT 03-05 OH          $227,114   $695,099                ---     $329,841         $240,846           ---
AUDIT 03-06 ME          $254,268   $ 36,062           $145,734          $982              ---          ---
AUDIT 03-07 PA            $4,563       $103                ---           ---              ---          ---
AUDIT 03-08 CT               ---     $1,892                ---           ---              ---          ---
AUDIT 04-14 SC            $3,905   $ 12,234                ---     $ 16,949         $ 35,587        $1,800
AUDIT 04-22   RI          $2,161     $2,008                ---      $ 89,152        $ 16,042    $   72,176
AUDIT 05-04 CO        $1,089,162   $ 12,541                ---           ---              ---          ---
AUDIT 05-09   HI             ---   $ 23,698           $160,406      $ 76,851           $4,725         $773
AUDIT 05-12 ESD           $1,614     $7,048                ---          $875              ---          ---
AUDIT 05-13 OH          $115,488        ---                ---      $ 89,239              ---          ---
AUDIT 05-16 NACHC            ---        ---                ---           ---              ---          ---




                                               21
Table C-4 below shows the summary of questioned costs for each subcategory. Figure 3
on p. 5 shows the largest amounts for questioned administrative costs while Figure 4 on
p. 6 shows the largest amounts for questioned member costs.

TABLE C-4: QUESTIONED COSTS BY CATEGORY AND SUBCATEGORY
                                                                                           Questioned
              Category          Subcategory                                                  Costs
ADMIN                           Costs Claimed in Excess of Costs Incurred              $        172,070
              Budget and
              Reporting         Difference between FSR/PER and General Ledger          $      2,758,608
                                Drawdowns                                              $      1,685,520
                                Duplicative costs                                      $         66,946
                                Missing Documentation                                  $     10,122,976
                                Unauthorized Expenditure                               $         24,000
                                Consulting/Contract                                    $         54,209
              Allowable
              Costs             Other                                                  $       486,066
                                Recalculated                                           $       113,293
                                Reclassifications                                      $       840,946
                                Staffing Payroll                                       $      2,816,312
                                Unallocable                                            $         48,357
              Match Shortfall   Match Shortfall                                        $      3,072,545
MEMBER                          Eligibility for Service                                $     13,189,557
              Living            Living Allowance Overclaimed/Overpaid                  $       353,740
              Allowance
                                Living Allowance Paid after Service Completion         $          8,368
                                Time sheets Missing/Improper                           $      1,077,895
              Education         Education Awards for Ineligible Members                $      5,436,871
              Award
                                Education Awards for Members with Insufficient Hours   $       554,388
                                Deviation from Budget/No Prior Approval                $         33,214
              Miscellaneous
                                Health Care                                            $         40,792
                                Training & Education                                   $         56,878
                                Uniforms & Other                                       $         10,830


Table C-5 below and Figure 5 on p.7 provide additional details on questioned costs for
living allowance and Education Awards by specific member eligibility issues.

TABLE C-5: QUESTIONED COSTS – MEMBER ELIGIBILITY
                                                          LIVING                        EDUC.
                                                      ALLOWANCE                        AWARD
        HS & Citizenship                           $     7,935,617               $   4,193,105
        HS Only                                    $     1,874,961               $     654,990
        Citizenship Only                           $       348,160               $     224,650
        Background                                 $       367,877           $          41,911
        Perf Evaluation                           $          1,530           $          80,710
        Insufficient Hours                         $             -               $     453,090
        Unspecified                                $       269,128               $     128,304

                                                   22
As shown in Table C-6, Figure C-7 and Figure C-8, the total of questioned costs across
all funding sources peaked for audits for several of the major cost categories conducted in
Fiscal Year 2002. More than $16 million in administrative costs and $21 million of
member costs were questioned in this year alone. In Fiscal Year 2002, about 29 percent
of questioned costs were related to budget and reporting issues and another 29 percent to
member eligibility for the living allowance.

TABLE C-5: QUESTIONED COSTS BY CATEGORY AND AUDIT YEAR

                             2001            2002           2003            2004              2005
Budgets and
Reporting              $1,575,965     $11,016,069      $1,004,893         $2,577      $1,206,628
Allowable Costs          $151,910      $3,035,749      $1,123,299        $17,731         $87,318
Administrative Match           $0      $2,492,950       $484,347              $0       $160,406


Total Admin. Costs     $1,727,875     $16,544,768      $2,612,539        $20,308      $1,454,352


Living Allowance -
Member Eligibility     $1,552,948     $11,124,416       $ 338,061       $ 84,488       $137,253
Living Allowance -
Overpaid, Time
Sheets, Ineligible
Activity                $ 694,106      $5,720,624      $ 946,549       $ 145,418        $ 76,840
Ed Award - Member
Eligibility             $ 572,991      $ 4,414,029      $ 320,781       $ 50,379        $ 12,744
Ed Award - Time
Sheets, Insuff Hrs            ---       $ 330,748       $ 220,027        $ 1,250               ---
Miscellenous
Member Costs              $ 5,162         $76,468         $ 3,673       $ 73,976              $773


Total Member Costs     $ 2,825,207   $ 21,666,285      $1,829,091      $ 355,511        $227,610




                                            23
               FIGURE C-7: Questioned Administrative Costs
                         by Category and Audit Year
$12,000,000


$10,000,000                                                 Budgets, Accounts and
                                                            Reports
                                                            Allowable Costs
 $8,000,000
                                                            Administrative Match
 $6,000,000


 $4,000,000


 $2,000,000


        $0
                 2001       2002         2003           2004               2005




                  FIGURE C-8: Questioned Member Costs
                        by Category and Audit Year
                                                Living Allowance - Member Eligibility
 $12,000,000
                                                Living Allowance - Overpaid, Time
 $10,000,000                                    Sheets, Ineligible Activity
                                                Ed Award - Member Eligibility
  $8,000,000
                                                Ed Award - Time Sheets, Insuff Hrs
  $6,000,000
                                                Miscellenous Member Costs
  $4,000,000


  $2,000,000


          $0
                 2001      2002       2003           2004              2005




                                    24
Incurred-Cost Audits - Findings

Table C-7 below shows the number of findings by category for each audit. Based on
costs questioned and observed practices, audits included 325 findings with associated
recommendations. Of these, 286 (88 percent) were directed at grantees and 39 (12
percent) were directed at the Corporation. Out of all findings, 77 (24 percent) were
related to financial management while 39 (12 percent) were related to the timeliness of
financial reporting. Of the financial management findings, 30 were specific to inadequate
financial and accounting systems and 31 to inadequate systems of internal control.


TABLE C-7: Findings by Category and Audit Number
                                                                             Member -
                                                       Grant      Grant      Compliance
                       Financial  Financial Subgrantee Compliance Compliance and
                       Management Reporting Monitoring - Matching - Other    Eligibility

 AUDIT 01-04     OR         2           1          3           3          3           3
 AUDIT 01-05     DE         6           4          2           0          1           6
 AUDIT 02-08     NC         7           4          0           1          2           2
 AUDIT 02-09    WA          2           2          4           2          5           0
 AUDIT 02-10     KY         3           1          7           3          5           1
 AUDIT 02-11     NJ         2           0          2           0          4           2
 AUDIT 02-14     MI         1           1          2           0          1           2
 AUDIT 02-16     AK         5           2          0           0          3           2
 AUDIT 02-17     NJ         4           4          1           1          2           3
 AUDIT 02-20     NH         4           1          8           0          6           1
 AUDIT 02-21     AL         5           1          3           1          6           2
 AUDIT 03-03     IN         3           2          6           1          0           1
 AUDIT 03-04     WI         0           1          4           1          3           3
 AUDIT 03-05     OH         2           1          2           0          5           1
 AUDIT 03-06     ME         4           2          0           4          8           3
 AUDIT 03-07     PA         2           0          1           0          1           0
 AUDIT 03-08     CT         6           4          0           0          2           1
 AUDIT 04-14     SC         2           1          1           1          1           3
 AUDIT 04-22     RI         4           1          0           1          1           5
 AUDIT 05-04     CO         5           2          0           1          0           1
 AUDIT 05-08     VT         2           2          1           0          0           2
 AUDIT 05-09     HI         1           1          1           0          6           6
 AUDIT 05-12    ESD         1           0          2           0          6           7
 AUDIT 05-13     OH         2           1          1           0          0           1
 AUDIT 05-16   NACHC        2           0          0           0          4           5




                                            25
Table C-8 and Figure 6 on pp. 9 - 10 show the total number of findings by subcategory.
Out of all findings, 75 (23 percent) were related to grant compliance issues such as OMB
cost principles and administrative standards. Of these, 44 were specific to OMB cost
principles and 17 to OMB administrative standards. Out of all findings, 75 (23 percent)
were related to member compliance, eligibility and reporting. Of these, 42 findings
focused on inadequate records for AmeriCorps members. Another 51 (16 percent) were
related to inadequate subgrantee monitoring by grantees. Only 20 (6 percent) were
related to grant matching issues.

TABLE C-8: Findings by Category and Subcategory

                                                                                   Number
                                                                                     of
         Category                             Subcategory                         Findings
      Financial         System of internal controls for safeguarding assets,            31
      Management        financial reporting, and compliance
                        Inadequate financial system/accounting                          30
                        Financial review of actual to budgeted expenditures             16
      Financial         Grantee FSRs not timely                                         17
      Reporting
                        Subgrantee FSR’s not timely                                      9
                        Cash Transaction Reports not timely                              6
                        Reconciliation of FSRs with FCTR                                 6
                        Final financial reports for project closeout not timely          1
      Subgrantee        Inadequate monitoring of subgrantee' activities                 51
      Monitoring
      Grant             Allowable costs/cost principles                                 10
      Compliance -
      Matching          Inadequate financial system/accounting                           5
                        System of internal controls for safeguarding assets,             5
                        financial reporting, and compliance
      Grant             Allowable costs/cost principles                                 44
      Compliance -
      Other             System of internal controls for safeguarding assets,            17
                        financial reporting, and compliance
                        Financial document retention                                    14
      Member -          Inadequate member records                                       42
      Compliance,
      Eligibility and   Living allowance/benefit expenses paid incorrectly              16
      Reporting         Membership documents not submitted in timely                     3
                        manner
                        Inappropriate Service                                            2




                                                26
Table C-9 and Figure C-10 show the number of findings per category for each audit year.
As with questioned costs, the largest number of findings occurred in Fiscal Year 2002.
There were 133 findings in this year, representing 41 percent of all findings over the
period studies. Although subgrantee monitoring represented 20 percent of findings in
Fiscal Year 2002 audits, these represented 5 percent of findings in Fiscal Year 2004 and 8
percent of the Fiscal Year 2005 audits to date. Conversely, member compliance,
eligibility and reporting amounted to 11 percent of findings in Fiscal Year 2002, but were
38 percent of findings in Fiscal Year 2004 and represent 35 percent of findings in Fiscal
Year 2005 audits to date.

TABLE C-9: FINDINGS BY CATEGORY AND AUDIT YEAR

                                           2001       2002      2003      2004       2005
Financial Management                            8       33        17          6        13
Financial Reporting                             5       16        10          2         6
Subgrantee Monitoring                           5       27        13          1         5
Grant Compliance - Matching                     3        8         6          2         1
Grant Compliance - Other                        4       34        19          2        16
Member - Compliance, Eligibility and
Reporting                                       9       15         9          8        22



                                 TOTAL        34       133        74         21        63



                                           2001       2002      2003      2004       2005
Financial Management and Reporting        23.5%     24.8%      23.0%     28.6%     20.6%
Financial Management and Reporting        14.7%     12.0%      13.5%      9.5%      9.5%
Subgrantee Monitoring                     14.7%     20.3%      17.6%      4.8%      7.9%
Grant Compliance - Matching                8.8%      6.0%       8.1%      9.5%      1.6%
Grant Compliance - Other                  11.8%     25.6%      25.7%      9.5%     25.4%
Member - Compliance, Eligibility and
Reporting                                 26.5%     11.3%      12.2%     38.1%     34.9%




                                           27
                   Figure C-10: Findings
                by Category and Audit Year
35

                                          Financial Management
30
                                          Financial Reporting
25
                                          Subgrantee Monitoring
20


15


10


 5


 0
     2001      2002         2003         2004                2005




                  Figure C-10 (Continued):
            Findings by Category and Audit Year
40

                                    Grant Compliance - Matching
35
                                    Grant Compliance - Other
30
                                    Member - Compliance, Eligibility
25                                  and Reporting


20

15

10

5

0
     2001      2002         2003         2004               2005




                            28
                                       Endnotes

1
  Compliance and Internal Controls Reports were sometimes combined into a single
report.
2
  In the course of preparing the results, we placed a few categories together where
groupings seemed appropriate. For example, we included certain member cost categories
together as appropriate. The same approach was applied to findings related to
compliance and internal controls. For example, the subgrantee monitoring category was
grouped with the financial management category.
3
  AmeriCorps grants stipulate that the grantee provide match funding for member
support, program operating, and administrative costs. The incurred-cost audit reports we
reviewed only provided the total match amounts in question.
4
 Some firms included criminal background checks as a compliance issue and did not
question the costs. OIG provided guidance in May of 2005 to question costs when
background checks are not performed or documented.
5
  Members are required to complete a certain number of hours of service to qualify for
their corresponding Education Award. For example, a full-time member must complete
1,700 hours of service to receive a full $4,725 Education Award. The Corporation has set
lesser Education Award amounts for less than full-time service.
6
  Presently, the Corporation requires grantees and their subgrantees use the Web-Based
Reporting System (WBRS) for recording member as well as financial and program
information. In earlier years, Financial Status Reports were complied on paper and
submitted to the Corporation by mail.




                                           29
